July 22, 2013

The Honorable John F. Kerry
Secretary
U.S. Department of State
2201 C Street, N.W.
Washington, D.C. 20520


Dear Secretary Kerry:

I write to alert you to serious deficiencies related to the Afghanistan Justice Training Transition
Program administered by the Department of State, Bureau of International Narcotics and Law
Enforcement Affairs (INL). In the course of performing an audit of rule of law programs
managed by INL, SIGAR became aware of INL’s sole source award to the International
Development Law Organization (IDLO) for Afghan justice sector training services. This award
does not appear to contain basic provisions that would allow INL to ensure proper monitoring
and evaluation of a project expected to cost U.S. taxpayers nearly $50 million.

On December 27, 2012, INL offered IDLO $47,759,796 in exchange for work on a project titled,
“Completing the Transition in Afghanistan: Justice Training Transition Program (JTTP)” (see
attached). On January 2, 2013, IDLO accepted INL’s offer by initialing a two-and-a-half page
Letter of Agreement. According to INL, this is the largest project IDLO has ever worked on and
the United States has already obligated $20 million towards its completion.

The JTTP is the most recent iteration of the regional justice sector training efforts that INL
began in Afghanistan with the Justice Sector Support Program (JSSP). The JSSP was comprised
of three main components: (1) regional training; (2) implementing the Case Management
System criminal case database; and (3) building the administrative capacity of the Afghan
government’s justice sector ministries. Under the JSSP, INL relied on prime contractor PAE
Inc. to provide services related to all three program components. INL has already expended
over $200 million on the JSSP since 2005. The agreement between INL and IDLO called for
IDLO to replace PAE as the provider of regional training services to the Afghan justice sector,
although PAE continues to implement the two remaining JSSP components.

SIGAR is already investigating significant concerns raised regarding award and management of
the PAE contract by an office reporting to Undersecretary for Management Patrick F.
Kennedy. 1 In light of those concerns, SIGAR was disturbed to learn that the IDLO agreement
contains even fewer oversight requirements than the PAE contract. This development
indicates that INL may be scaling back its oversight of a program that is central to U.S. efforts
to promote the rule of law in Afghanistan and which involves millions of dollars of taxpayer
money.

1
 Letter from Senator Claire McCaskill to Special Inspector General for Afghanistan Reconstruction John F.
Sopko (February 15, 2013) and reply to Chairman Claire McCaskill (March 13, 2013).
                                                     -2-




For example, although INL and the Bureau of Administration relied on Contracting Officer’s
Representatives (CORs) to monitor work performed in Afghanistan under the PAE training
contract, State Department officials told SIGAR that INL has not arranged for CORs to monitor
the work now being performed by IDLO. SIGAR was also told by State Department officials
that INL’s Contract Administration Support Division is not required to conduct line-by-line
oversight of costs associated with the work performed under the IDLO agreement. This
approach is in direct contrast to the line-by-line cost oversight performed on the PAE contract,
which normally allows the government to evaluate the validity of contractor costs before
making payment. INL officials also told SIGAR auditors that they do not have the authority to
demand basic organizational and project information from IDLO because it is an international
organization.

INL officials’ assertion that they do not have authority to compel IDLO to produce information
is disingenuous: INL could have conditioned the award on IDLO submitting to appropriate
oversight. This omission is particularly disturbing given that INL chose IDLO as the sole project
implementer.

Moreover, the IDLO agreement appears to deviate from established State Department policy.
In response to several SIGAR requests for copies of the guidelines, rules, and regulations that
INL officials follow when drafting agreements like the one with IDLO, SIGAR obtained a copy of
a State Department action memorandum, 2 which includes a template for drafting such
agreements.

Most strikingly, the template contains a “required” provision establishing INL’s “monitoring
and evaluation” rights under agreements like the one signed with IDLO. This provision states,
in pertinent part:

                   A. Each party shall have the right . . . (2) to inspect and audit any records and
                      accounts with respect to funds, property and contract services furnished
                      by that party under this agreement to determine that such funds, services
                      or property are being utilized in accordance with the terms of this
                      agreement.

                                                           ****

                   C. Each party will furnish the other with information necessary to evaluate
                      the effectiveness of the project operations under the terms of this
                      agreement. At the termination of the project a completion report shall be
                      issued as an integral part of this process. The completion report will
                      include a summary of United States Government and [the other party’s]
                      project contributions, a record of activities performed, objectives
                      achieved and related basic data.


2
    Action Memorandum from Rand Beers (INL) to Frank E. Loy (June 21, 1999).
                                                   -3-




This provision was included in an agreement between the State Department and the Government of
the Islamic Republic of Afghanistan 3 and SIGAR found examples of other State Department
agreements containing this provision as recently as 2012. 4 Yet inexplicably, this provision was not
included in the IDLO agreement. This omission raises red flags regarding the level of planning and
analysis INL conducted prior to determining that IDLO would be a suitable implementing partner. It
also calls into question why INL would award nearly $50 million to IDLO without requiring the same
level of transparency it requires from a foreign government or a government contractor.

Preliminary information gathered by SIGAR auditors suggests that IDLO is ill-prepared to manage
and account for how U.S.-taxpayer funds will be spent on the JTTP. Documents provided to SIGAR
indicate that IDLO’s annual budget is about $27 million (at €1.32 to the dollar). A State Department
official told SIGAR auditors that IDLO’s budget has declined in recent years, even as its portfolio of
projects has increased, forcing IDLO to implement its projects with less funding. According to this
official, IDLO also lacks proper international financial certifications, which prevents it from validating
its internal spending. Therefore, in the absence of further explanation, it seems ill-considered for
INL to have awarded almost $50 million to an organization that may not have the ability to account
for the use of those funds, under an agreement in which INL failed to require proper provisions for
oversight.

The oversight risks associated with INL’s sole source award prompted SIGAR to request substantive
information directly from IDLO. However, IDLO has refused to fully comply with SIGAR’s repeated
requests for information regarding its budget, organizational structure, and financial relationship
with the U.S. government. IDLO has also refused to provide complete copies of the materials it uses
to help train Afghan justice sector officials under its award from INL. IDLO’s failure to comply with
these requests raises serious concerns regarding its commitment to transparency and willingness to
acknowledge the authority of the U.S. government to oversee how U.S. taxpayer funds are spent.

Immediate transparency is necessary to help ensure that INL’s sole source award to IDLO does not
turn into a blank check, even if that means renegotiating the current agreement to provide for
proper oversight. If the State Department is not able to ensure proper oversight, SIGAR may be
obligated to issue a letter pursuant to section 5(d) of the Inspector General Act of 1978, as
amended. In addition, because INL’s failure to include proper oversight provisions in the IDLO
agreement has hindered SIGAR’s ability to obtain information from IDLO, it may also be necessary
for SIGAR to subpoena IDLO to compel the production of any and all records IDLO possesses related
to its operations in Afghanistan. On a related point, I trust that INL and those offices reporting to
Undersecretary Kennedy will be fully transparent as SIGAR continues its audit of the PAE contract
and its transition to IDLO.


3
 Letter of Agreement on Police, Criminal Justice, and Counternarcotics Support Programs Between the
Government of the United States of America and the Islamic Republic of Afghanistan (March 6, 2006).
4
 See, e.g., Letter of Agreement on Narcotics Control and Law Enforcement Between the Government of the
United States of America and the Government of the Dominican Republic (September 7, 2012).
                                                           -4-




SIGAR recommends that the State Department address the oversight deficiencies in INL's agreement
with IDLO and review the circumstances that led to IDLO's selection as the JTIP implementer.
Moreover, SIGAR recommends that the State Department review all similar contracts, grants, and
other agreements related to Afghanistan reconstruction to ensure that arrangements have been
made for appropriate oversight.

Thank you for your attention to this important matter. Please do not hesitate to contact me should
you have any questions.

                                                                      Sincerely,




                                                                      Specia spector General
                                                                       for Afghanistan Reconstruction



Enclosure:

Letter of Agreement Between Department of State and
The International Development Law Organization (December 27, 2012)




1550 Crystal Drive, 9th Floor
Arlington, Virginia 22202
                                Mailing 2530 Crystal Dr1ve
                                Arlington, Virginia 22202-3940
                                                                 I   Tel 703 545 6000   I   www.slgar.mll
                                                   United States Department of State
                                                   Washington, D. C. 20520
                                                   www.state.gov

                                                    DEC 2 7 2012
UNCLASSIFIED

ACTION MEMO FOR ACTING ASSISTANT SECRETARY PEREZ

FROM:              INL/AP - Al Matano,   Actin~

SUBJECT:           International Law Development Organization (IDLO)
                   Contribution Letter for Justice Program in Afghanistan

Recommendation

      That you approve and sign the attached funding letter from lNL/AP to the
International Development Law Organization (IDLO) to fund the Justice Training
Transition Program (JTTP), which represents the de-scoped training portion of the
current Justice Sector Support Program (JSSP), in the amount of $47,759,796 in
incremental funding, over 30 months.

      Approve _    __,Q~~~I/
                          ::...___    Disapprove _ _ _ _ __

Background

       This is an action request to provide $47,759,796 to IDLO to fund the newly
created program: "Completing the Transition in Afghanistan: Justice Training
Transition Program (JTTP)." JTTP will continue the de-scoped training portion of
the JSSP contract currently implemented by Pacific Architects & Engineers. IDLO
will take over the portion of the program which provides nationwide justice sector
training.

       Due to the evolving operational environment in Afghanistan, INL has
determined that IDLO is the best partner to carry out the ultimate goal of
transitioning the justice sector training program from an externally implemented
project to an Afghan Government-operated and managed continuing legal
education program. INL believes that this change is necessary to reach the final
stage in the plan to transition the training program to the Afghan government.




                                 UNCLASSIFIED
                                    UNCLASSIFIED
                                            2
      The new program capitalizes on IDLO's unique relationship with the
Government of Afghanistan, which is a member state, IDLO' s fundamental
expertise in legal training, and its years of experience operating in Afghanistan.

      This program will be incrementally funded through the 30-month period of
performance and $20,000,000 has been currently identified from the FY 2012
Washington-held Administration of Justice (IN41AF25) project.

Attachment:
      Funding Letter to IDLO Director General Irene Khan

Fiscal Data:
1911231022000C- 2078- 2078328D15- 2761-4131-IN41AF25- 019525--
$20,000,000.00




                                 UNCLASSIFIED
                                                United States Department of State
                                                Bureau for International Narcotics
                                                and Law Enforcement Affairs

                                                Washingto11, D.C. 20520

                                                      DEC 2 7 2012
Dear Director General Khan:

       This letter is to inform you that, under the authority of the Foreign
Assistance Act of 1961, as amended, the Government of the United States of
America, through the U.S. Department of State's Bureau of International Narcotics
and Law Enforcement Affairs (INL) will provide $47,759,796 to the International
Development Law Organization (IDLO) for the project "Completing the Transition
in Afghanistan: Justice Training Transition Program (JTTP)," as described in the
attached program proposal and budget, pendmg availability of funds. The funds
will support a program which will provide nationwide justice sector training, and
will transfer operations and management to the Afghan government. Your
countersignature on this letter acknowledges acceptance of these funds and your
agreement to comply with the terms and conditions set forth in this letter, and
constitute finn commitments of the U.S. government and IDLO. None of the
funds provided may be used for other projects without express written consent.

         The actions to be taken and the resources to be provided by the U.S.
government and 1DLO in support of the proposed program are set forth in this
letter and the enclosed program proposal and budget, and constitute firm
commitments of the U. S. government and IDLO. Future funding for this project is
contingent upon the availability of duly authorized and appropriated funds,
satisfactory progress toward project goals, and approval by the U.S . Department of
State.

       IDLO is to provide INL with quarterly program and fmancial reports on the
activities undertaken with these funds with particular attention to the performance
indicators enumerated within the program proposal. These reports should be
submitted not later than 30 days after the end of each quarter in accordance with
the attached program proposal. A final report should be provided upon completion
of the program within six months of the date of completion. We anticipate that
IDLO will do all in its power to minimize overhead costs so that funding can be
directed towards implementing the project proposal. The terms and conditions of
the project may be amended by mutual written agreement. IDLO will cooperate
with INL to ensure that funds provided in this letter of agreement are implemented
consistent with U.S. Department of State requirements including the obligation in
                                         -2-

some cases to take appropriate measures or, if necessary, to terminate assistance if
the recipient organization or key individual of such an organization is found to
have been convicted of a narcotics offense or to have been engaged in drug
trafficking.

       As required by U.S. law and regulations, IDLO shall make reasonable
efforts to ensure that none of the funds provided through this letter are provided to
or through a known drug trafficker. IDLO also agrees to use reasonable efforts to
ensure that none of these funds are used, directly or indirectly, to provide support
to individuals or entities associated with terrorism. Reasonable efforts include
ensuring that all grants and contracts used to carry out these projects will include
provisions corresponding to the terrorism and drug trafficking requirements of this
paragraph with respect to all recipients of these funds. U.S. funds cannot be used
to pay any contractors or sub-contractors who are on the U.S. Treasury Office of
Foreign Assets Control List, which may be found at
https://sdnsearch.ofac.treas.gov/.

      While IDLO will have primary project management responsibility, the U.S.
Department of State requires close coordination between IDLO project
management personnel and INL's Afghanistan/Pakistan Office (INL/AP) and
INL/Kabul Office. To this end, INL/AP will designate one or more of its staff
members to monitor IDLO's performance.

       U.S. law does not permit IDLO to earn interest on funds provided. If
interest is earned on any such funds, IDLO shall provide INL with a year-end
accounting and send to the attention ofiNL/AP, through the U.S. Mission to the
UN Agencies in Rome, a certified check made out to the order of the United States
Treasury for the amount of the earned interest.

       In addition, consistent with Section 620M of the Foreign Assistance Act,
U.S. funds shall not be provided to furnish assistance, including training, to any
unit of the security forces (including customs and border police) where there is
credible information that such unit has committed gross violations of human rights.
Should IDLO include members of security force units in the targeted audience,
IDLO will provide each applicable candidate's name and identifying information
concerning any police unit(s) not less than 45 days prior to the commencement of
training, and IDLO will not proceed with training of any security force member
until advised that this human rights vetting has been successfully completed.
                                         -3-

        To comply with U.S. procedures for providing these funds to IDLO, please
confirm to me in writing as soon as possible, your response indicating IDLO's
acceptance of the terms and conditions set forth in this letter. Our receipt of this
letter, with your counter signature below indicating your acceptance of the terms
and conditions herein, will serve as the official U.S. obligation of $20,000,000.
The U.S. government's obligation for performance of this agreement over the
amount of $20,000,000 is contingent upon the availability of appropriated funds.

       Please provide your response through the U.S. Mission to the UN Agencies
in Rome. The funds provided herein will be transferred to IDLO as soon as
practicable following my receipt of your acceptance.

                                       Sincerely,




                                       Ca~z btL(
                                       Acting Assistant Secretary

Enclosures:
   1. IDLO Program Proposal
  2. IDLO Program Budget
   3. U.S. Fiscal Data


Countersigned:

Name:                                               Date: - - - - - - - -
        --------------------
                            Fiscal Data

191 1231022000C- 2078- 2078328Dl 5- 2761-4131- IN41AF25-019525--
$20,000,000.00
